r

Llntbfr States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted April 9, 2021
Decided June 4, 2021
Before
DIANE S. SYKES, Chief Judge
MICHAEL S. KANNE, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
No. 18-2732
GARY E. PEEL,
Petitioner-Appellant,
v.
BARBRA ZARRICK,
Respondent-Appellee.

Appeal from the United States District
Court for the Southern District of Illinois.
No. 17-cv-l045-SMY
Staci M. Yandle,

Judge.

Gary Peel challenges the district court's denial of his petition for a writ of
habeas corpus (and further denial of a post-judgment motion) under 28 U.S.C. §§ 2241
and 2255(e). We affirm, as Peel has no debatable argument that he qualifies for
habeas corpus review.
Long ago, Peel had a sexual relationship with his then-wife's younger sister.
When this sister-in-law was 16 years old, Peel took nude photos of her. At the time,
pictures of a 16-year-old did not count as child pornography. But eventually childpornography statutes were crafted to cover 16-year-olds, and Peel retained the photos.
Years passed. Decades after taking the pictures, Peel found himself in
bankruptcy and divorce proceedings. Attempting to win concessions from the woman

APPENDIX - D

—j

Hititeit jitetes (Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
June 30, 2021
Before
DIANE S. SYKES, Chief Judge
MICHAEL S. KANNE, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
No. 18-2732
GARY E. PEEL,
Petitioner-Appellant,

Appeal from the United States District
Court for the Southern District of
Illinois.

v.
No. 17-cv-l045-SMY
BARBARA ZARRICK,
Respondent-Appellee.

Staci M. Yandle,
Judge.
ORDER

On consideration of the petition for rehearing and rehearing en banc filed in the
above-entitled cause by pro se appellant, Gary E. Peel on June 15, 2021, no judge in
active service has requested a vote on the petition for rehearing en banc and all members
of the original panel have voted to deny rehearing. It is, therefore, ORDERED that
rehearing and rehearing en banc are DENIED.

illr

APPENDIX - E

;

